Office of Inspector General


           SEMIANNUAL
            REPORT TO
            CONGRESS


For the Period April 1, 2012 through September 30, 2012




                  Report No. 47
               



  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
THE OFFICE OF INSPECTOR GENERAL

           serves American taxpayers
     by investigating reports of waste, fraud,
  mismanagement, abuse, integrity violations or
   unethical conduct involving Federal funds.



          To report any suspected activity
involving NEH programs, operations, or employees

              Call the OIG Hotline

                1 (877) 786-7598



                Mailing Address

  Office of Inspector General — Hotline
 National Endowment for the Humanities
    1100 Pennsylvania Ave. N.W., Room 419
           Washington, DC 20506


                      Fax

                (202) 606-8329


            Electronic Mail Hotline

                  oig@neh.gov




  Government employees are protected from reprisal

            Caller can remain anonymous

              Information is confidential
                                                   TABLE OF CONTENTS


         EXECUTIVE SUMMARY………………………..………………………………………..                                                                                      1

         THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ...................................                                                    2

         THE OFFICE OF INSPECTOR GENERAL........................................................................                            2

         AUDIT AND REVIEW ACTIVITIES .................................................................................                      3

         INVESTIGATIVE ACTIVITIES …………………………………………………………                                                                                    8

         OTHER ACTIVITIES ..........................................................................................................       10

         TABLE I - REPORTING REQUIREMENTS…………………………………………… ..                                                                              12

         TABLE II - INSPECTOR GENERAL-ISSUED REPORTS................................................                                       13
         WITH QUESTIONED COSTS

         TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ...................................                                             13
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

         GLOSSARY OF AUDIT TERMINOLOGY ........................................................................                            14

         PEER REVIEW RESULTS………………………………………………………………...                                                                                Appendix A




NEH OIG Semiannual Report                                                      i                                                           September 30, 2012
                                          EXECUTIVE SUMMARY

         Sincere thanks to the Office of the Inspector General (OIG) staff for all of their efforts and commitment to
         the mission of this office. Without their professionalism and dedication, the effectiveness of this office
         would deteriorate. OIG activities during this reporting period addressed internal agency operations, grant-
         ee operations/compliance, and oversight of non-Federal audit of NEH grantees.

         The OIG issued a report detailing exceptions taken during our annual evaluation of the agency’s infor-
         mation security program and practices for FY 2011, pursuant to the Federal Information Security Manage-
         ment Act of 2002 (FISMA). We specifically identified the need for improvements concerning Risk Man-
         agement, Incident Response and Reporting, Security Training, Continuous Monitoring Management, and
         Contingency Planning. As of the end of this reporting period, NEH management has implemented correc-
         tive action in response to our comments concerning Risk Management, Incident Response and Reporting,
         and Security Training. We will complete our FY 2012 FISMA evaluation and issue a report during the
         next semi-annual reporting period.

         The OIG engaged the services of Leon Snead & Company, P.C. (IPA) to conduct the annual audit of the
         NEH financial statements for fiscal year ending September 30, 2012, as required by the Accountability of
         Tax Dollars Act of 2002. The final report will be issued in November 2012.

         Investigative efforts have been steady over the past six months. The Deputy Inspector General continues
         to work closely with the National Science Foundation OIG concerning one matter. Two additional matters
         were active as of the end of the reporting period.

         OIG staff continued active participation on the Council of Inspectors General on Integrity and Efficiency
         (CIGIE) Grant Reform Working Group, providing comments related to the OMB Advanced Notice of Pro-
         posed Guidance entitled, Reform of Federal Policies Relating to Grants and Cooperative Agreements;
         Cost Principles and Administrative Requirements (Including Single Audit Act).




NEH OIG Semiannual Report                                    1                                               September 30, 2012
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Congress enacted
      the National Foundation on the Arts and the Humanities Act of 1965. This Act established the National Endow-
      ment for the Humanities (NEH) as an independent grant-making agency of the Federal government to support
      research, education, and public programs in the humanities. According to the Act, "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics; litera-
      ture; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and
      theory of the arts; those aspects of social sciences which have humanistic content and employ humanistic meth-
      ods; and the study and application of the humanities to the human environment with particular attention to reflect-
      ing our diverse heritage, traditions, and history and to the relevance of the humanities to the current conditions of
      national life."

      The NEH is directed by a Chairman, who is appointed by the President and confirmed by the U.S. Senate, for a
      term of four years. Advising the Chairman is the National Council on the Humanities, a board of 26 distinguished
      private citizens who are also appointed by the President and confirmed by the Senate. The National Council
      members serve staggered six-year terms.

      Grants are awarded through four divisions - Research Programs, Education Programs, Preservation and Access,
      and Public Programs -- and three offices - Challenge Grants, Digital Humanities, and Federal/State Partnership.

      The NEH recently launched an initiative, Bridging Cultures, which encourages the exploration of ways in which
      cultures from around the globe, as well as the myriad subcultures within America’s borders, have influenced
      American society. This initiative is designed to bridge both space and time to help American citizens gain a deep-
      er understanding of their own varied cultural heritage, as well as the history and culture of other nations.




                             THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General (OIG) was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Offices of
       Inspector General in several departments and in thirty-three agencies, including the NEH. The NEH Inspector
       General (IG) is appointed by the Chairman. The independence of the IG is an important aspect of the Inspector
       General Act. For example, the IG: cannot be prevented from initiating, carrying out, or completing an audit or
       investigation, or from issuing any subpoena; has access to all records of the agency; reports to the National
       Council on the Humanities through the NEH Chairman, and can only be removed by the National Council on the
       Humanities, which must give Congress 30 days notice of the reasons for the removal; and reports directly to
       Congress.

       The Act states that the OIG is responsible for (1) conducting audits and investigations; (2) reviewing legislation;
       (3) recommending policies to promote efficiency and effectiveness; and (4) preventing and detecting fraud,
       waste, and abuse in the operations of the agency. The IG is also responsible for keeping the Chairman and Con-
       gress fully and currently informed of problems and deficiencies in the agency’s programs and operations.

       The OIG staff currently consists of the Deputy Inspector General and two auditors. The Inspector General posi-
       tion is vacant. The OIG has a Memorandum of Understanding with the United States Treasury Inspector Gen-
       eral for Tax Administration detailing the procedures for the OIG to be provided legal services. Investigations are
       handled by the IG and an auditor.




NEH OIG Semiannual Report                                         2                                                   September 30, 2012
                                       AUDIT AND REVIEW ACTIVITIES

                                            LIST OF REPORTS ISSUED
       The OIG is responsible for external and internal audits. External efforts include on-site grant audits, limited scope desk
       audits, accounting system surveys, review of OMB Circular A-133 audit reports, and on-site quality control reviews of
       CPA workpapers. Internal efforts consist of audits, inspections, and reviews/evaluations of NEH administrative,
       programmatic, and financial operations. The OIG is also responsible for monitoring the work of the independent public
       accountant (IPA) engaged to conduct the annual audit of the NEH financial statements as required by the
       Accountability of Tax Dollars Act of 2002, and examining the IPA’s audit workpapers and reports to ensure compli-
       ance with applicable requirements.

       Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of 1978, as
       amended, requires us to report on the "Total Dollar Value of Questioned Costs" (including a separate category for the
       “Dollar Value of Unsupported Costs”) and the "Dollar Value of Recommendations that Funds Be Put to Better Use",
       [see Tables II and III].


                                                                                   Report Number                      Date Issued

    INTERNAL AUDITS/REVIEWS/INSPECTIONS

    Federal Information Security Management Act (FISMA)                             OIG-12-02 (I)                      05/18/2012
     Inspector General Section of the Reporting Document to the
     Office of Management and Budget — Fiscal Year 2011


    EXTERNAL AUDITS

    Limited Audit — Southeastern Library Network (SOLINET)/                         OIG-12-02 (EA)                     07/17/2012
      Lyrasis

    Limited Audit — Asia Society and Museum                                         OIG-12-03 (EA)                     06/08/2012


    ACCOUNTING SYSTEM SURVEYS

    American Association for State and Local History                                OIG-12-02 (TS)                     07/13/2012

    Open Knowledge Commons                                                          OIG-12-03 (TS)                     09/12/2012


    QUALITY CONTROL REVIEW

    Modified Quality Control Review of Deloitte & Touche LLP —                      OIG-12-02 (QCR)                    07/20/2012
     FY 2009 and FY 2010 Single Audits of the Asian Art Museum
     of San Francisco


    SINGLE AUDIT ACT REVIEWS

    OMB Circular A-133 Reports                                                      — See Page 6            —


    ADVISORY MEMORANDUM

    NEH Challenge Grant Award to the Historic Preservation Trust                          N/A                          05/03/2012
     of Lancaster County


NEH OIG Semiannual Report                                              3                                              September 30, 2012
                                    AUDIT AND REVIEW ACTIVITIES

                                       SUMMARY OF REPORTS ISSUED

                                    INTERNAL AUDITS/REVIEWS/INSPECTIONS

                                  Federal Information Security Management Act (FISMA)
                                Inspector General Section of the Reporting Document to the
                                   Office of Management and Budget — Fiscal Year 2011
                                               May 18, 2012; OIG-12-02 (I)

      We completed the fiscal year 2011 evaluation of the NEH’s information security program and practices, pur-
      suant to the Federal Information Security Management Act of 2002 (FISMA). The results of our evaluation
      were documented in the Inspector General Section of the NEH 2011 Annual FISMA Report to the Office of
      Management and Budget, and submitted on November 15, 2011 via the Cyberscope portal. We used the FY
      2011 Department of Homeland Security metrics to evaluate NEH’s compliance with FISMA.

      We determined that NEH’s security program and practices were generally consistent with FISMA require-
      ments for FY 2011. However, we specifically identified the need for improvements concerning the areas of
      Risk Management, Incident Response and Reporting, Security Training, Continuous Monitoring Manage-
      ment, and Contingency Planning.

                                                  EXTERNAL AUDITS

                            Limited Audit — Southeastern Library Network (SOLINET)/Lyrasis
                                             July 17, 2012; OIG-12-02 (EA)

      We performed a limited audit of the Southeastern Library Network/Lyrasis (the “Entity”) records as they re-
      late to NEH grant PE-50012-08. The Entity submitted a final financial report to the NEH and conveyed that
      the related expenditures and cost-share conform to the intended grant purpose, as stipulated in the individual
      NEH grant award. The principal objectives of our limited audit were to determine that (1) grant expenditures
      were made in accordance with applicable provisions of NEH’s General Terms and Conditions for Awards to
      Organizations, NEH’s Preservation and Access Education and Training guidelines, and the terms of the ap-
      proved grant award; (2) the Entity properly tracked and met the anticipated cost-sharing; and (3) proper con-
      trols over the use of Federal funds existed in accordance with minimum standards prescribed in OMB Circu-
      lars A-110 (2 CFR Part 215) and A-122 (2 CFR Part 230). Our limited audit was conducted in accordance
      with Generally Accepted Government Auditing Standards (GAGAS).

      Overall, the Entity provided the expected regional preservation field services to libraries, archives, and other
      cultural repositories throughout the southeastern United States. However, we identified the following com-
      pliance findings during our testing:

         Payroll costs charged to the grant were based upon the approved budget rather than an actual “after-the-
           fact” determination, which violates salary/wage substantiation rules articulated in OMB Circular A-122,
           Cost Principles for Non-Profit Organizations.

         The Entity’s record retention guidelines do not fully comply with Federal administrative requirements.

         The Entity neglected to report income earned during the award period on the final Financial Status Report
           submitted to the NEH.

      The Entity concurred with our findings and has implemented the necessary corrective action.

NEH OIG Semiannual Report                                     4                                            September 30, 2012
                                 AUDIT AND REVIEW ACTIVITIES

                                           EXTERNAL AUDITS (con’t.)

                                    Limited Audit — Asia Society and Museum
                                          June 8, 2012; OIG-12-03 (EA)

In 2009, the NEH awarded the Asia Society and Museum, (the “Society”) a million dollar, multi-year grant entitled,
“The Buddha and Pilgrimage and Buddhist Art” (GI-50066-09). The Society underwent an OMB Circular A-133
audit (Single Audit) for fiscal year ended June 30, 2010. The audited Schedule of Expenditures of Federal Awards
(SEFA) for FY 2010 reported expenditures related to NEH grant GI-50066-09 equal to the full award amount,
($1,000,000). As the Federal oversight agency, we elected to “piggyback” off of the related work performed by the
independent auditor (IPA) and we conducted a modified Quality Control Review (QCR) of the FY 2010 single audit
[OIG-12-01 (QCR) dated March 6, 2012]. Based on the results of the QCR, we decided to expand testing in two
areas. The objectives of the resulting limited audit were to:

   Review the Society’s existing procurement policies and procedures to determine whether they are sufficient to
     ensure compliance with Federal procurement and suspension/debarment compliance standards; and

   Determine whether the subrecipient’s expenses were allowable and expended in accordance with grant objectives,
     OMB cost circulars, and the approved budget.

Our limited audit was conducted in accordance with Generally Accepted Government Auditing Standards (GAGAS).

Overall, the NEH grant resulted in the successful production of a video documentary and museum exhibitions that
were well received. We did not identify any questioned or unallowable expenses; however, several areas for im-
provement were noted. Specifically:

   We determined that the Society limits competition in certain areas and recommended that the organization expand
     their existing Purchasing Policies and Procedures to ensure compliance with applicable Federal procurement and
     suspension/debarment requirements.

   Our detailed testing of the subrecipient expenditures and review of the related controls revealed two compliance-
     related findings at the subrecipient level — (1) lack of formalized procedures to ensure entities receiving con-
     tracts in excess of $25,000 have not been suspended or debarred by the Federal government; and (2) failure to
     utilize a time-and-effort reporting system to track effort expended on the NEH project. We recommended that the
     Society strengthen subrecipient monitoring procedures to ensure conformance with the terms and conditions of
     the NEH award.

The Society concurred with our findings and has implemented the necessary corrective action.




NEH OIG Semiannual Report                                   5                                           September 30, 2012
                                 AUDIT AND REVIEW ACTIVITIES

                                         ACCOUNTING SYSTEM SURVEYS

                                  American Association for State and Local History
                                                   Nashville, TN
                                          July 13, 2012; OIG-12-02 (TS)

 We were informed about a financial irregularity perpetuated by a former employee of the American Association for
 State and Local History (AASLH). The AASLH currently administers grants awarded by the Institute of Museum and
 Library Services (IMLS) and the NEH. In collaboration with the IMLS, we conducted an accounting system survey of
 the AASLH to determine whether the organization adopted corrective measures in response to the fraud, and improved
 its financial management system and related controls.

 We concluded that, upon implementation of the NEH-OIG recommendations, the organization’s upgraded accounting
 system, management controls, Governance oversight, and formalized policies/procedures should allow the organization
 to sufficiently manage and account for NEH grant funds moving forward. We specifically identified several areas in
 which existing financial management controls must be improved and made several suggestions to further segregate du-
 ties, which would ultimately improve internal controls. We also identified a potential cash flow issue that warrants fur-
 ther scrutiny and continuous monitoring by both IMLS and NEH management and advised that the inclusion of certain
 safeguards in future grant awards should be considered, as suggested by OMB Circular A-110, Subpart B, Para-
 graph .14, Special award conditions.

                                             Open Knowledge Commons
                                                  Cambridge, MA
                                         September 12, 2012; OIG-12-03 (TS)

 We conducted a pre-award accounting system survey of Open Knowledge Commons (the “Commons”). The Com-
 mons was recently approved for a substantial NEH Digital Humanities grant, representing support for the incorporation
 and launch of the Digital Public Library of America (DPLA) — a groundbreaking project that seeks to digitize and
 bring together the contents of our nation’s libraries and archives, and make them freely available to all online. The
 objective of our survey was to obtain information to determine the adequacy of the organization’s accounting system,
 management controls, and policies and procedures designed to administer NEH grant funds.

 We concluded that, upon implementation of the NEH-OIG recommendations, the organization’s upgraded accounting
 system, management controls, Governance oversight, and formalized administrative policies/procedures should allow
 the organization to sufficiently manage and account for NEH grant funds. We specifically identified several areas in
 which existing financial management controls required improvement and obtained written assurances from the princi-
 pals of the Commons that they will abide by the terms of the NEH award.


                                           SINGLE AUDIT ACT REVIEWS

 The OIG receives Single Audit reports directly from state and local government auditors and NEH grantees. We also
 receive communications from other Federal agencies regarding Single Audit findings, (primarily the Department of
 Health and Human Services and the National Science Foundation) and we routinely perform queries of the Federal Au-
 dit Clearinghouse to determine the reporting of Single Audit findings applicable to NEH awards.

 During the period ended September 30, 2012, we reviewed 28 OMB Circular A-133 audit reports. None of the reports
 contained findings that required action by NEH management.



NEH OIG Semiannual Report                                    6                                            September 30, 2012
                                 AUDIT AND REVIEW ACTIVITIES

                                           QUALITY CONTROL REVIEW

                             Modified Quality Control Review of Deloitte & Touche LLP
                     FY 2009 and FY 2010 Single Audits of the Asian Art Museum of San Francisco
                                          July 20, 2012; OIG-12-02 (QCR)

 As the Federal oversight agency for the Asian Art Museum of San Francisco (the “Museum”), we performed a modified
 quality control review of the June 30, 2009 and June 30, 2010 single audits conducted by Deloitte & Touche LLP (the
 “IPA”). The overarching goals of this engagement were to (1) determine whether the single audits were conducted in
 accordance with the auditing and reporting requirements promulgated by Office of Management and Budget (OMB)
 Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations; (2) determine the sufficiency of
 the audit coverage of NEH grant MI-50070-07 by performing a focused review of the IPA’s Federal compliance testing
 related to the award; and (3) ensure additional NEH challenge grant audit procedures were properly executed, as re-
 quired by our previously issued desk review report, [OIG-11-06 (DR)].

 We concluded that the IPA generally met auditing standards and OMB Circular A-133 requirements, and properly ad-
 dressed concerns raised by our previous desk review; therefore, no additional audit work was required of the IPA.
 However, we identified (1) working paper documentation issues that required supplemental verbal explanation; and (2)
 several working paper inconsistencies, which were shared with the audit partner. The first item was satisfactorily re-
 solved and the working paper inconsistencies were limited to minor quality deficiencies that did not necessitate correc-
 tive action. We determined that the IPA detail tested over 75 percent of the total expenditures associated with the NEH
 grant and no unallowable costs were identified. Museum management subsequently addressed the compliance findings
 (as documented in the FY 2011 audit report). Based upon these facts, we decided that no further testing of NEH grant
 MI-50070-07 was necessary.


                                  WORK IN PROGRESS (as of September 30, 2012)


 Inspection ~ Grant Application In-take Process and Panel Development

 For purposes of this inspection, activities of NEH program staff and management from receipt of a grant application to
 presentation of the application for peer review/evaluation represent the grant application in-take process. The objec-
 tives of this inspection are to determine: (1) how applications are screened for eligibility and completeness, and when
 this screening takes place; (2) the scope of the review of draft proposals by NEH program staff and the criteria used
 during the review; (3) the extent of conformity to established guidance pertaining to the review of draft proposals; (4)
 the extent that program officials use agency guidance, NEH Principles and Considerations for Recruiting Panelists,
 when a panel is assembled; and (5) the existence of any division/office-specific guidance on panel recruitment and/or
 composition, and the extent of its use.


 Inspection ~ Federal Information Security Management Act (FISMA) — Fiscal Year 2012

 The Federal Information Security Management Act of 2002 (FISMA) requires each agency to develop, document, and
 implement an agency-wide information security program. Each year, the OIG conducts an independent evaluation of
 the NEH information security program, pursuant to the requirements of the FISMA.




NEH OIG Semiannual Report                                    7                                           September 30, 2012
                                   INVESTIGATIVE ACTIVITIES

                                                  BACKGROUND
  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible vio-
  lations of criminal or civil laws, administrative regulations, and agency policies, which impact the programs and
  operations of the NEH. The OIG Hotline, facsimile, web-based complaint form, e-mail address, and regular
  mail are efficient and effective means of receiving allegations or complaints from employees, grantees, contrac-
  tors, and the general public. We have obtained assistance from other OIGs, the Federal Bureau of Investigation
  (FBI), the Postal Inspection Service, and other investigative entities in the past.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determi-
  nation of the appropriate action to take. This decision could result in the initiation of an audit or an investiga-
  tion; referral to an NEH office/division or another Federal agency; or no further action. When we determine
  that a matter represents a criminal violation, we will seek assistance from the Federal Bureau of Investigations
  (FBI), another Federal Inspector General, or the United States Department of Justice.

  During the past several years, the OIG has received Hotline contacts and did not have sufficient resources to
  complete the inquiry or investigation in a timely manner. Therefore, to remedy this problem, we have been in-
  quiring of other OIGs concerning their willingness and ability to assist us on an “as needed” basis under a reim-
  bursable agreement. Several OIGs responded they would consider performing work for us on a case-by-case
  basis, depending on the availability of their staff. However, this assistance would be for criminal cases only and
  we have no guarantee that the OIGs would have staff available when needed.


                                            OPEN AT MARCH 31, 2012

  Four matters were open as of March 31, 2012, two of which remain open as of the end of this reporting period.


                CONTACTS DURING THE SIX-MONTH PERIOD ENDED SEPTEMBER 30, 2012

  We received three (3) contacts during the current reporting period.

  One matter was disclosed to the OIG by the Executive Director of a state humanities council. The Executive Di-
  rector reported a financial irregularity that occurred at the organization, which was perpetrated by a former fiscal
  officer. This matter remains open as details concerning the irregularity are being assessed by the OIG.

  One contact was initiated by a participant in an NEH-funded summer seminar. The participant reported inappro-
  priate and humiliating treatment extended to the participant by the director of the summer seminar. Subsequent to
  a preliminary interview with the participant, the matter was referred to the NEH Division of Education.

  One contact represented a complaint received from a detainee at the Nye County Detention Center. The com-
  plaint was referred to the U.S. Department of Justice, Office of Inspector General — Civil Rights and Civil Liber-
  ties Complaints.

                                         OPEN AT SEPTEMBER 30, 2012

  Three matters are open as of September 30, 2012.




NEH OIG Semiannual Report                                   8                                          September 30, 2012
                                        INVESTIGATIVE ACTIVITIES


                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

      No matters were referred to the U.S. Department of Justice during this reporting period.


                                    HOTLINE AND PREVENTION ACTIVITIES

      We maintain a toll-free Hotline number, an agency e-mail address, and an internet address to provide addi-
      tional confidentiality for individuals bringing matters to the attention of the OIG. During this reporting peri-
      od, we implemented an interactive, web-based template designed to facilitate the submission of complaints
      to the OIG. The complaint template is accessible via the OIG homepage, (www.neh.gov/about/oig). We
      periodically issue agency-wide e-mail messages informing NEH staff of violations that are reportable to the
      OIG. Posters advising staff to contact the OIG are displayed throughout the agency’s facilities.

      The Deputy Inspector General also delivers a brief presentation during meetings convened by NEH program
      officials involving project directors affiliated with new NEH grant awards. The presentation includes an
      overview of OIG operations (including the OIG Hotline) and emphasizes the importance of the recipients’
      efforts to understand the administrative requirements and specific terms and conditions applicable to their
      respective awards.




                                      SUMMARY OF INVESTIGATION ACTIVITY


                                          Open at beginning of period               4



                                       Matters brought to the OIG during
                                              the reporting period                  3



                                          Total investigative contacts              7

                                     Closed, referred, or no action deemed          4
                                             necessary during the
                                                reporting period

                                             Open at end of period                  3




NEH OIG Semiannual Report                                   9                                             September 30, 2012
                                             OTHER ACTIVITIES

                                REGULATORY AND LEGISLATIVE REVIEWS

The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the economy
and efficiency of agency programs and operations; and (2) contain adequate internal controls to prevent and detect
fraud and abuse. During this reporting period, OIG staff continued to actively participate in the efforts of the CIGIE
Grant Reform Working Group. This working group was organized to review the Advanced Notice of Proposed Guid-
ance published in the Federal Register on February 28, 2012 by the Office of Management and Budget (OMB) entitled,
Reform of Federal Policies Relating to Grants and Cooperative Agreements; Cost Principles and Administrative Re-
quirements (Including Single Audit Act), and to develop comments for consideration by the OMB. We submitted com-
ments concerning the proposed reforms that were incorporated in the consolidated response submitted by the CIGIE
Grant Reform Working Group.

                                        WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside consult-
ants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immediate
staff), National Council meetings, and monthly senior staff meetings. OIG staff may contribute to the discussions, but
the OIG does not participate in policymaking.

The Deputy IG delivered a presentation about the mission, responsibilities, and activities of the NEH Office of Inspec-
tor General and the OIG Hotline during the Digital Humanities Project Directors’ meeting held at the NEH in Septem-
ber 2012.


                        PARTICIPATION ON THE COUNCIL OF INSPECTORS GENERAL
                                    ON INTEGRITY AND EFFICIENCY

The Inspector General Reform Act of 2008 (Public Law 110-409), amended the Inspector General Act of 1978 and
established the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all
Inspectors General whose offices are established by the Inspector General Act of 1978 (and subsequent amendments)
— those that are Presidentially-appointed/Senate-confirmed and those that are appointed by agency heads (Designated
Federal Entities). During the reporting period ended September 30, 2012, the Deputy IG regularly attended monthly
CIGIE meetings (and provided input, as requested), bi-monthly meetings of the Federal Audit Executive Council
(FAEC), bi-monthly meetings of a recently established sub-group of the CIGIE representing the “Smaller OIGs”, and
the annual IG Conference held in May 2012. The Deputy Inspector General and a staff auditor participated in the Sin-
gle Audit Roundtable held in May 2012.


                                     INTRA-GOVERNMENTAL ACTIVITY

Collaboration with the National Science Foundation ~ Office of Inspector General

The Deputy Inspector General is participating in a joint investigative effort concerning a major media grantee. The
joint effort involves OIG staff from three (3) Federal agencies, (inclusive of the NEH). The National Science Founda-
tion ~ OIG is leading the investigation.




NEH OIG Semiannual Report                                 10                                           September 30, 2012
                                               OTHER ACTIVITIES

                                            OIG INTERNET AND INTRANET

  The OIG has posted audit/review reports and semiannual reports on the internet and on the NEH intranet. The re-
  ports are accessible through the NEH homepage and the OIG homepage (www.neh.gov/about/oig).

  To promote NEH staff awareness and understanding of the OIG mission and responsibilities, we provide hyper-
  links to several other Federal agencies such as the Office of Management and Budget, the Government Accounta-
  bility Office, the Office of Government Ethics, and the IGNET website.

                                              TECHNICAL ASSISTANCE

  Throughout this reporting period, OIG staff provided technical help to NEH staff, grantees, and independent public
  accountants about various matters. We are generally consulted about matters related to the implementation of the
  audit requirements of OMB Circular A-133. OIG staff also provided technical assistance to the NEH Office of
  Grant Management (OGM) related to “Organizational Survey” submissions requested and reviewed by OGM staff.


                                 “AUDIT READINESS” AWARENESS CAMPAIGN

  The OIG executes an “Audit Readiness” awareness campaign via e-mail. The objective of the campaign is to dis-
  seminate guidance that would assist recipients of NEH grants in their efforts to preclude unfavorable outcomes
  should the organizations’ NEH grants be selected for audit. The e-mail communication emphasizes the importance
  of the each recipient’s understanding of the specific NEH grant terms and conditions and the administrative require-
  ments applicable to all Federal awards. We remind recipients that they are stewards of Federal funds and therefore
  must comply with the OMB circulars and the terms and conditions of the NEH grant awards. Highlighted in the
  communications are specific areas wherein problems are commonly found during audits of NEH grantees and hyper-
  links to appropriate guidance materials and resources. We also discuss the importance of effective internal controls.
  The e-mail communications are sent directly to project directors and grant administrators identified for all non-profit
  awardees.

  During the reporting period ended September 30, 2012, e-mail communications were sent as noted below. We have
  reasonable assurance that all of the awardees received a copy of the communication.



                  NEH Office or Division          Number of Awardees             Total Value of Awards
             Division of Public Programs                    45                         $12,920,316
             Division of Preservation and
             Access                                         28                          $5,028,874
             Office of Challenge Grants                     27                          $9,825,250
             Office of Digital Humanities                    9                          $2,106,057
             Division of Education Programs                 33                          $6,596,725
             Division of Research Programs                  11                          $2,705,931




NEH OIG Semiannual Report                                  11                                            September 30, 2012
                                                       TABLE I

                                  REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
       semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


       IG Act Reference                           Reporting Requirements                                  Page

       Section 4(a)(2)            Regulatory and Legislative Reviews………………………………                           10

       Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies………………..…                   *

       Section 5(a)(2)            Recommendations for Corrective Action …………………………                          *

       Section 5(a)(3)            Prior Significant Recommendations Unimplemented…………..…                    *

       Section 5(a)(4)            Matters Referred to Prosecutive Authorities………………………                      9

       Section 5(a)(5)            Instances Where Information Was Refused or Not Provided……..              *

       Section 5(a)(6)            List of Reports Issued………..…………………………………….                                3

       Section 5(a)(7)            Summary of Reports Issued.……………………………………….                               4-7

       Section 5(a)(8)            Audit Reports - Questioned Costs….………………………………                           13

       Section 5(a)(9)            Audit Report - Funds To Be Put to Better Use.…….……………...                 13

       Section 5(a)(10)           Prior Audit Reports Unresolved……………………………………                              *

       Section 5(a)(11)           Significant Revised Management Decisions……………………….                        *

       Section 5(a)(12)           Significant Management Decisions with which OIG Disagreed…..              *

       Section 5(a)(14-16)        Peer Review Results………………………………………………. Appendix A


        * None this period




NEH OIG Semiannual Report                                        12                                             September 30, 2012
                                                          TABLE II
                                             INSPECTOR GENERAL-ISSUED REPORTS
                                                   WITH QUESTIONED COSTS


                                                                                               Number     Questioned   Unsupported
                                                                                             Of Reports    Cost          Cost
         A. For which no management decision has been made by the                               -1-        $33,294        $-0-
            commencement of the reporting period.

         B. Which were issued during the reporting period.                                      -0-        $ -0-          $-0-

                                        Subtotals (A+B)                                         -1-        $33,294        $-0-

         C. For which a management decision was made during
            the reporting period.

                   i.    Dollar value of disallowed costs.                                       -1-       $ 1,444*       $ -0-

                   ii.   Dollar value of costs not disallowed                                    -0-       $ -0-          $ -0-

                   iii. Dollar value of costs not disallowed based on the                        -0-       $31,850*       $ -0-
                        “Value of Services Received.”


         D. For which no management decision has been made by the                                -0-       $ -0-          $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within                             -0-       $ -0-          $ -0-
            six months of issuance.

         * Of the total questioned ($33,294), NEH management allowed $31,850, which
         represents salary/fringe costs not supported by employee time and effort reports.



                                                      TABLE III
                                          INSPECTOR GENERAL-ISSUED REPORTS
                                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                                                  Number       Dollar
                                                                                                                  Of Reports   Value


         A. For which no management decision has been made by the commencement                                         -0-     $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                                             -0-     $-0-

         C. For which a management decision was made during the reporting period.                                      -0-     $-0-

                   i. Dollar value of recommendations that were agreed to by management.                                       $-0-

                   ii. Dollar value of recommendations that were not agreed to by                                              $-0-
                       management.

         D. For which no management decision was made by the end of the reporting period.                              -0-     $-0-




NEH OIG Semiannual Report                                                13                                               September 30, 2012
                            GLOSSARY OF AUDIT TERMINOLOGY


        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation; or
        because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  14                                       September 30, 2012
                                                                                        APPENDIX A

                                               PEER REVIEW RESULTS


       The following information is provided pursuant to the requirements of Section 989C of Public Law 111-203
       (July 21, 2010), the Dodd-Frank Wall Street Reform and Consumer Protection Act, amending the Inspector
       General Act of 1978 (the IG Act), 5 U.S.C. App. This appendix complies with Section 5(a)(14 - 16) of the IG
       Act of 1978, as amended.


       (14)(A) Peer Review of the Audit Function. On December 9, 2010, the U.S. Consumer Product Safety
       Commission (CPSC) issued a System Review Report on the audit organization of the NEH OIG in effect for
       the year ended March 31, 2010. The CPSC found that the system of quality control for the audit organization
       of the NEH OIG had been suitably designed and complied with to provide reasonable assurance of performing
       and reporting in conformity with applicable professional standards in all material respects. Federal audit
       organizations can receive a rating of pass, pass with deficiencies, or fail. The NEH OIG received a peer review
       rating of pass.

       ( 15 ) Outstanding Recommendations from any Peer Review of the NEH OIG. There are no outstanding
       recommendations from any peer review of the NEH OIG conducted by another Office of Inspector General
       that have not been fully implemented.

       ( 16 ) Peer Review Conducted by the NEH OIG. On January 27, 2011, the NEH OIG issued a System
       Review Report on the United States Capitol Police (USCP) Office of Inspector General audit organization in
       effect for the year ended September 30, 2010. We found that the system of quality control for the audit organi-
       zation of the USCP OIG had been suitably designed and complied with to provide USCP OIG with reasonable
       assurance of performing and reporting in conformity with applicable professional standards in all material
       respects. The USCP OIG received a peer review rating of pass.




NEH OIG Semiannual Report                                                                               September 30, 2012
